Memorandum from the Office of the Inspector General



May 24, 2010

Janet C. Herrin, WT 10D-K

REQUEST FOR FINAL ACTION – AUDIT 2009-12291-04 – REVIEW OF POSTPONED
AND CANCELLED CAPITAL PROJECTS – RIVER OPERATIONS



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

If you have any questions, please contact Amy R. Rush, Senior Auditor, at (865) 633-7361
or Lisa H. Hammer, Director, Financial and Operational Audits, at (865) 633-7342. We
appreciate the courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:JP
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Scott D. Self, MR 6D-C
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3S120
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12291-04
        
 


                                     Audit Report
 
Office
      of the Inspector General                                   

                                 To the Senior Vice President, 
                                 River Operations
                                                                 

 

 

 

 

 
REVIEW OF
 


POSTPONED AND
 

 

CANCELLED CAPITAL
PROJECTS – RIVER
OPERATIONS
 




 

 
 
 

 Audit Team                                   Audit 2009-12291-04
Amy R. Rush                                          May 24, 2010
Stephanie M. Broome
Jamie M. Wykle
Office of the Inspector General                                           Audit Report


SYNOPSIS
As part of our annual audit plan, we reviewed the process for postponing and
cancelling capital projects. Our audit objectives were to determine whether fiscal
years (FY) 2007 and 2008 project postponements and cancellations were
properly approved, effectively communicated, and monitored to prevent
inappropriate charges.

Our review specifically focused on the processes for the Nuclear Power Group,
Power System Operations, Fossil Power Group, and River Operations (RO).
Due to the unique aspects of each of these organizations, we will issue a
separate report on each organization. This report addresses the process for the
RO organization.

Based on our review, we determined all sampled cancelled capital projects
reviewed were approved by the appropriate levels of authority and contained a
capital classification designated by Fixed Asset Accounting (FAA). However, we
noted that project documentation was not updated with changes in project status
as required.

In addition, we determined that one project cancellation was not communicated
to FAA; however, we noted that project costs related to the project were written
off in a timely manner.

We recommended the Senior Vice President (VP), RO, in conjunction with other
organizations:

   Establish a process for ensuring that project plans are updated with the
    project status as required by Standard Programs and Processes (SPP) 2.1.
   Develop and implement criteria related to project cancellations, including time
    requirements for communication of project cancellations to FAA and Business
    Services.

The Senior VP, RO, responded to a draft of this report and agreed with our
recommendations. The Senior VP, RO, also provided planned actions in
addressing those recommendations.


BACKGROUND
Each year, the Tennessee Valley Authority (TVA) initiates a wide variety of
capital and operations and maintenance (O&M) projects. In that regard, TVA's
project justification process is designed to ensure that such projects are aligned
with TVA's vision, goals, and strategic plan objectives. As defined by TVA's



Audit 2009-12291-04                                                            Page 1
Office of the Inspector General                                                                 Audit Report


SPP-2.1: Project Justification Process,1 the process consists of identifying
project initiatives, coordinating and completing project reviews, receiving funding,
approving projects, and executing projects which include project postponement,
cancellation, and closure. Projects are initiated, owned, managed, and executed
by the respective Strategic Business Unit (SBU).

According to TVA's Capitalization policy, projects are classified as capital if they
result in the creation of new assets, the replacement of existing assets, or the
removal of existing assets. Projects are considered O&M if they repair, restore,
test, inspect, or assess existing assets. In addition, any capital project that is
cancelled should be reclassified as an O&M project and project costs expensed.
FAA personnel are responsible for determining the proper accounting
classification for all projects under consideration for capitalization.

Capital projects greater than $250,000 are required to be entered as stand-alone
projects in the Project Justification System (PJS), which serves as the official
database containing project data and project approval status. Depending on the
cost and type of the project, there can be multiple levels of project approval.
Projects less than or equal to $250,000 are grouped together and entered into
PJS as a "bucket." Projects are classified as one of three categories:

   Strategic – Projects initiated or sanctioned by the Board or management with
    costs greater than $8 million.
   Base – Projects specific to an SBU to maintain its mission with costs less
    than or equal to $8 million.
   Discretionary – Projects classified as Economic/Revenue, Capacity Growth,
    and Reimbursable.

Occasionally, projects may require a revision to change the project scope or
priority and may need to be suspended, accelerated, or deferred.2 When such a
change occurs, the respective SBU must ensure the project change process is
followed and adequately documented. Specifically, the SBU is required to
(1) initiate a revised Project Justification (PJ) form with an explanation for the
change and identification of the impacts on the project cost, schedule, scope,
and/or benefits, (2) coordinate appropriate reviews for revisions to projects, and
(3) update the Five-Year Project Plan.3

Depending on the project cost, projects are required to have various levels of
approval. According to an interim policy, RO-SDP-9.17: Projects Process, RO
has two project approval boards (PAB): a Pre-PAB and a PAB. The Pre-PAB

1
  During the review, SPP-2.1 was being revised to update the project authorization matrix. We used the
  latest approved revision for this testing.
2
  According to Chief Financial Officer personnel, project postponements or deferrals include projects where
  the in-service date (ISD) has been extended past the original planned ISD. During the period of
  postponement, costs may still be incurred, and work may still be performed on the project.
3
  The Five-Year Project Plan is a "living" document comprising the current list of projects maintained as the
  SBU's funded and prioritized projects currently being implemented or planning to be implemented.
Audit 2009-12291-04                                                                                    Page 2
Office of the Inspector General                                                           Audit Report


consists of a chairperson appointed by the RO SVP and the RO SVP's direct
reports. The responsibilities of the Pre-PAB include evaluating projects greater
than $250,000. The PAB consists of a chairperson appointed by the RO SVP,
direct reports to the RO SVP, and the RO SVP. The PAB is responsible for
providing advice and objective critiques of new/revised projects requiring
approval or concurrence by the RO SVP.

Once RO projects are approved, a project manager is responsible for developing,
coordinating, monitoring, and ensuring completion of the project. A Project
Control Specialist (PCS) is responsible for assisting the project manager with
project documentation and tracking.

We determined there were a total of 589 postponed capital projects and
87 cancelled capital projects in FYs 2007 and 2008. Of those totals, RO had
32 postponed and 1 cancelled project (Table 1). As of FY 2008, RO projects
deemed as postponed had a total requested budget and total expenditures of
approximately $326 million and $93.7 million, respectively. RO-cancelled
projects had a total requested budget of $1.3 million and no total expenditures.4

                                          Postponed Projects        Cancelled Projects
             Fossil Power Group                  232 79
            Nuclear Power Group                   80 3
                 Power Supply
                                                 233 4
                  Operations
               River Operations                   32                          1
                      Other                       12 0
                                  Total          589                         87
                                                                                     Table 1



OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling capital projects. Our audit objectives were to determine whether
FYs 2007 and 2008 project postponements and cancellations were properly
approved, effectively communicated, and monitored to prevent inappropriate
charges. Our review specifically focused on the processes for the Nuclear Power
Group, Power System Operations, Fossil Power Group, and RO. Due to the
unique aspects of each of these organizations, we will issue a separate report on
each organization. This report addresses the process for the RO organization.




4
  Requested budget totals were obtained from PJS project documentation, and expenditures were obtained
  from FAA. These totals do not include "bucket" projects.
Audit 2009-12291-04                                                                             Page 3
Office of the Inspector General                                                                   Audit Report


To achieve our objectives, we:

   Reviewed relevant policies and procedures governing the approval,
    communication, and monitoring of RO capital projects, including
    SPP-2.1: Project Justification Process, and RO-SDP-9.17: Projects Process.
   Interviewed RO project management, including PCS personnel, the Project
    Finance Specialist responsible for the PJS, RO Controller personnel, and
    FAA personnel.
   Identified 32 postponed and 1 cancelled project in FYs 2007 and 2008.
   Selected a statistical sample5 of four postponed projects and a judgmental
    sample of one cancelled project.
   Obtained and reviewed project documentation, including PJ forms, Five-Year
    Project Plans, Capital Reporting Summaries, and year-to-date cost
    information.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Although we did not test
for compliance with laws and regulations, nothing came to our attention during
the audit that indicated noncompliance with laws and regulations.


FINDINGS AND RECOMMENDATIONS
Based on our review, we determined all sampled cancelled capital projects
reviewed were approved by the appropriate levels of authority and contained a
capital classification designated by FAA. However, we noted that project
documentation was not updated with changes in project status as required.

In addition, we determined that one project cancellation was not communicated
to FAA; however, we noted that project costs related to the project were written
off in a timely manner.

APPROVAL OF PROJECTS

According to TVA's SPP-2.1: Project Justification Process, each SBU is required
to obtain approval as defined in the Project Authorization Matrix for funded
projects and project revisions meeting certain criteria. Project approval is
required to be documented on the PJ form. We selected a sample of five
projects, four postponed, and one cancelled and reviewed the PJS

5
  For projects selected in the samples, we reviewed all revisions within scope for the project.
Audit 2009-12291-04                                                                                    Page 4
Office of the Inspector General                                                             Audit Report


documentation for each project. We verified that all projects contained a capital
classification designated by FAA and were approved by the appropriate
groups/individuals in accordance with SPP-2.1.6

COMMUNICATION OF PROJECT STATUS
To facilitate project tracking, project status must be communicated by RO project
management to FAA, Business Services, and internal project personnel.
Specifically, projects having a cancelled status should be communicated to FAA
and Business Services to ensure accuracy and timeliness of financial reporting.
Cancelled projects as well as projects having a postponed status are required to
be communicated within the organization to better facilitate project management.
According to FAA process documentation and the Controller's Web site,
communication of project status to FAA includes the submission of Form 4013,
Capital Projects Completion/Cancellation Notice, for projects which are
cancelled. Project cancellation status must also be submitted to Business
Services since that organization is currently responsible for writing off project
costs. Requirements for communicating this information to FAA and/or Business
Services are not specified in SPP-2.1 or RO-SDP-9.17: Project Process.
Communication of RO project status occurs during the Pre-PAB and PAB
meetings as well as through project module notes which include project history.
Communication for RO projects also occurs through the Five-Year Project Plan
which is required by SPP-2.1 to be updated with changes in project status.

Communication to FAA and Business Services
We requested project communication from FAA for the sampled cancelled
projects and determined that one cancelled project was not communicated to
FAA; however, we noted the project costs were written off in a timely manner.
According to FAA, Form 4013 is required to be submitted to FAA no later than
ten business days after the cancellation date.

Communication Within RO
We obtained RO project module notes for the one cancelled and four postponed
projects. In addition, we were provided RO Five-Year Project Plans. We
reviewed the project plans and determined that of the five projects, the one
cancelled project was not updated on the Five-Year Project Plan. Specifically,
we noted that the project was included on the Five-Year Project Plan but was not
marked as cancelled.

Based on discussions with project personnel and the review of project
documentation, we determined that all sampled postponed projects had been
postponed or cancelled for valid reasons. Reasons for postponing projects
included scheduling issues and management request.


6
  We did not test the accuracy of FAA's classification during this review. We relied on procedures
  performed in OIG Audit 2009-12429, where no exceptions were identified in our testing of FAA financial
  reporting controls related to the capital classification of projects.
Audit 2009-12291-04                                                                                Page 5
Office of the Inspector General                                                               Audit Report


MONITORING OF PROJECTS
According to TVA's Capitalization policy, FAA is responsible for determining the
proper accounting classification for all projects under consideration for
capitalization. According to FAA personnel, the project classification allows the
SBU to charge appropriate costs related to the project as either capital or O&M,
depending on the project classification. Specifically, if a project is designated as
"capital" by FAA, it is the responsibility of the project manager to ensure only
capital-type costs7 are capitalized. Similarly, only noncapital costs should be
charged to O&M. Any capital project that is cancelled should be reclassified as
an O&M project and project costs expensed.

We determined through interviews and policy reviews that a PCS assists the
project manager with the cost control of projects. We reviewed a selection of
capital costs for the sampled postponed RO projects and determined that costs
appeared to be properly classified as capital costs. We also determined that
project costs for the one cancelled project had been written off as of September
2008. During the review of project costs, we identified two RO projects in which
travel costs were split among projects. According to RO project personnel, there
is no policy governing the splitting of project costs. However, project
management personnel stated that reviews, independent of the SBU, occur and
that expenses were not material enough to affect the project budget.


RECOMMENDATIONS
We recommended the Senior VP, RO, in conjunction with other organizations:

   Establish a process for ensuring that project plans are updated with the
    project status as required by SPP-2.1.
   Develop and implement criteria related to project cancellations, including time
    requirements for communication of project cancellations to FAA and Business
    Services.


MANAGEMENT'S COMMENTS AND OUR EVALUATION
The Senior VP, RO, responded to our report on May 14, 2010 (please see the
Appendix). Based on the response, the following actions will be taken by RO
consistent with our recommendations:

   Procedure RO-SDP 9.17 will be revised to more explicitly state the
    requirements for updating project plans when appropriate.


7
  Capital costs are costs incurred on the purchase of land, buildings, construction, and equipment needed
  to bring a project to a commercially operable status.
Audit 2009-12291-04                                                                                  Page 6
Office of the Inspector General                                          Audit Report


   Financial Shared Services (FSS) will develop a new procedure,
    FSS-SPP-13.11.1 (capitalization process), which will provide project
    cancellation criteria, including time requirements for communicating with
    FAA and Business Services.

We concur with RO management's planned actions.




Audit 2009-12291-04                                                             Page 7
APPENDIX
Page 1 of 1
